Review of Medicare Payments for Beneficiaries with Institutional Status - Humana Health Plan, (A-05-97-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of Medicare Payments for Beneficiaries with Institutional Status -
Humana Health Plan (A-05-97-00009)
January 20, 1998
Complete Text of Report is available in PDF format
(256 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit entitled, "Review of Medicare
Payments for Beneficiaries with Institutional Status." Our objective was
to determine if capitation payments to Humana Health Plan (H1406) were appropriate
for beneficiaries reported as institutionalized.
We found that Medicare payments to Humana for beneficiaries reported as institutionalized
were generally correct. Our results are based on a statistical sample of 100
Medicare beneficiaries reported as institutionalized during the period October
1, 1994 through September 30, 1996. We determined the beneficiaries in our sample
were correctly reported as institutionalized, with the exception of minor errors.
The positive results are attributed to Humana's procedures for verifying the
institutional status of its beneficiaries.